            Audit Report




Accuracy of Auxiliary Payments to
     Children After Divorce




      A-13-11-21100 | March 2014
MEMORANDUM


Date:      March 12, 2014                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration terminated auxiliary benefits to a stepchild when a
           marriage between the beneficiary and the child’s parent ended in divorce.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Accuracy of Auxiliary Payments to Children After Divorce
A-13-11-21100

March 2014                                                                Office of Audit Report Summary

Objective                                 Our Findings

To determine whether the Social           SSA issued payments to auxiliary beneficiaries after the parents’
Security Administration (SSA)             divorce. We identified 1,390 stepchildren whom SSA determined
terminated auxiliary benefits to a        were entitled to auxiliary OASDI benefits, and the beneficiary’s
stepchild when a marriage between the     marriage ended in divorce in or after June 2007. We randomly
beneficiary and the child’s parent        selected 60 of the 1,390 stepchildren to determine whether SSA
ended in divorce.                         properly terminated their benefits after the parents divorced.

Background                                Of the 60 beneficiaries sampled, we found SSA did not take
                                          appropriate action to terminate OASDI benefits for 11 stepchildren.
An individual is eligible for Old-Age,    Based on our analysis, we estimate SSA overpaid about
Survivors and Disability Insurance        $3.1 million to 248 stepchildren. Unless SSA takes action to
(OASDI) benefits as a stepchild if        identify and correct these errors, we estimate the stepchildren will
(1) his/her natural or adoptive parent    receive additional overpayments of approximately $479,000 until
married the beneficiary after the child   they reach age 18 or are older and a full-time student.
was born or (2) he/she was conceived
before the natural or adoptive parent     Our Recommendations
married the beneficiary but was born
after that marriage.                      We recommend SSA:

Pub. L. No. 104-121, the Contract with    1. Review the benefits for the 11 stepchildren we identified,
America Advancement Act of 1996,             collect OASDI overpayments, and initiate termination actions,
requires that, effective July 1996, a        as appropriate.
stepchild’s entitlement to benefits end
the month after the natural parent’s      2. Determine and implement the most cost-effective process to
divorce from the beneficiary. Before         prevent and detect overpayments to stepchildren after the
this change, the divorce had no effect       parents’ divorce.
on a stepchild’s entitlement.
                                          SSA agreed with our recommendations.
In 2003 and 2006, SSA’s Office of
Budget, Finance, Quality, and
Management (OBFQM) assessed the
accuracy of stepchild benefits. These
studies identified over $12 million in
processing errors. OBFQM found that
even when divorces were reported to
the Agency, the termination action for
the stepchild was often mishandled.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Payments to Stepchildren After Divorce ...................................................................................2
     Initiatives to Prevent and Detect Overpayments ........................................................................5
           Child Relationship Data Not Posted ....................................................................................5
           Actions Not Taken for Reported Divorces ..........................................................................5
Conclusions ......................................................................................................................................6
Recommendations ............................................................................................................................6
Agency comments ............................................................................................................................7
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)
ABBREVIATIONS
C.F.R.               Code of Federal Regulations

MBR                  Master Beneficiary Record

OASDI                Old-Age, Survivors and Disability Insurance

OBFQM                Office of Budget, Finance, Quality, and Management

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

Pub. L. No.          Public Law Number

SSA                  Social Security Administration

U.S.C.               United States Code




Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) terminated
auxiliary benefits to a stepchild when a marriage between the beneficiary 1 and the child’s parent
ended in divorce.

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program under
Title II of the Social Security Act. The OASDI program provides benefits to qualified retired and
disabled workers and their dependents as well as survivors of insured workers. 2

An individual is eligible for OASDI benefits as a stepchild if

      his/her natural or adoptive parent married the beneficiary after the child was born or

      he/she was conceived before the natural or adoptive parent married the beneficiary but was
       born after that marriage. 3

Pub. L. No. 104-121, the Contract with America Advancement Act of 1996, requires that,
effective July 1996, a stepchild’s entitlement to benefits end the month after the natural parent’s
divorce from the beneficiary. Before this change, a divorce had no effect on a stepchild’s
entitlement. If the beneficiary legally adopted the stepchild, entitlement may have continued
after the divorce. Further, if the beneficiary died, the stepchild’s entitlement to benefits did not
end.

In 2003 and 2006, SSA’s Office of Budget, Finance, Quality, and Management (OBFQM) 4
assessed the accuracy of stepchild benefits. 5 These studies identified over $12 million in
processing errors. OBFQM found that even when divorces were reported to the Agency, the
termination action for the stepchild was often mishandled. Specifically, the studies reported the
stepchild’s benefits were


1
 In this report, the term “beneficiary” refers to the wage earner (numberholder) upon which the stepchild’s benefits
are based.
2
    Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
3
  If the beneficiary is alive when the child applies, the child must have been his/her stepchild for at least 1 year
immediately preceding the day the child applies. If the beneficiary is deceased when the child applies, the child
must have been his/her stepchild for at least 9 months immediately preceding the day the beneficiary died. The
9-month requirement is not applicable if the marriage between the beneficiary and the natural or adoptive parent
lasted fewer than 9 months under certain conditions.
4
 Effective October 1, 2013, the Office of Quality Performance was realigned under the Office of the Deputy
Commissioner for Budget, Finance, Quality, and Management.
5
 SSA OBFQM, Unreported Divorces/Stepchild Terminations a Source of Title II Improper Payments, March 2008.
Both studies were discussed in the March 2008 report.



Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)                                               1
   not terminated in cases where the natural parent’s benefits were terminated because of
    divorce, which resulted in an overpayment to the stepchild or

   in a suspended payment status instead of being terminated, which impacted the benefits of
    other auxiliary beneficiaries on the record. 6

The 2003 study also found the stepchild’s benefits were not terminated in the correct month.
However, the 2006 study reported this issue had been corrected.

To conduct our review, we obtained an electronic data extract from SSA’s Master Beneficiary
Record (MBR) as of September 2012. The data extract contained 15,702 records indicating (a) a
stepchild was on the record; (b) a marriage end date of July 1996 or later; and (c) the marriage
ended in divorce or annulment/voidable. We applied additional screening criteria to these
records and identified 1,390 stepchildren whom SSA determined were entitled to auxiliary
OASDI benefits, and the beneficiary’s marriage ended in divorce in or after June 2007. 7 We
randomly selected 2 samples from the 1,390 stepchildren to determine whether SSA had properly
terminated their OASDI benefits after their parents divorced. One sample included
30 stepchildren in current payment status as of September 2012 (Sample Frame 1), and the other
sample included 30 stepchildren in a non-payment status as of September 2012 (Sample
Frame 2). See Appendix A for a discussion of our scope and methodology and Appendix B for
our sampling methodology and results.

RESULTS OF REVIEW
Stepchildren continued receiving OASDI benefits after their parents divorced. Of the
60 stepchildren we reviewed, 11 were improperly paid. As a result, the stepchildren received
about $150,000 in OASDI overpayments. Further, an additional $31,000 in overpayments could
accrue over the life of the claims 8 if SSA does not take action to correct these errors. Finally,
OBFQM had previously identified issues related to the posting of child relationship data, and we
found these problems continued.

Payments to Stepchildren After Divorce
Of the 60 stepchildren reviewed, we found 11 (18 percent) did not have their OASDI benefit
payments properly terminated. Based on our calculations, we estimate about 248 stepchildren’s


6
  Although the stepchildren did not receive benefits while in suspended pay status, any other entitled auxiliaries on
the record may not be paid correctly until the stepchild’s record is terminated. This type of error could result in an
underpayment to other entitled beneficiaries.
7
 Since OBFQM reviewed terminations from July 1996 through May 2007 as part of its prior studies, our review
focused on marriages that ended in June 2007 or later.
8
  According to C.F.R. §404.350, a child can receive benefits on the earnings record of a person insured for OASDI if
the child is under age 18, the child is 18 years or older and has a disability that began before age 22, or the child is
18 years or older and qualifies for benefits as a full-time student.



Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)                                                 2
payments were not terminated properly after the parents’ divorce. These stepchildren received
OASDI overpayments totaling approximately $3.1 million. The amount of overpayments could
increase by approximately $479,000 if SSA does not take corrective actions.

We determined 6 of the 30 stepchildren’s payments in Sample Frame 1 should have been
terminated when the parents’ marriages ended in divorce, but they were not. This resulted in
approximately $100,000 in OASDI overpayments (see Table 1) through October 2013. We
found these stepchildren inappropriately received benefits up to 6 years after their payments
should have been terminated.

    Table 1: Overpayments to Stepchildren in Current Payment Status as of September 2012
                                                                        Amount
                                                                                          Estimated
                               Duration of          Payment             Overpaid
               Error                                                                       Potential
                                Improper           Status as of            as of
               Period                                                                       Future
                                Payments          October 2013          October
                                                                                         Overpayments
                                                                           2013
            11/11 – 9/13        23 months           suspended 9           $5,677               N/A 10
            4/09 – 10/13        55 months             current            $20,836              $1,568 11
            6/12 – 10/13        17 months             current             $9,636             $18,810 12
            2/12 – 10/13        21 months             current            $14,401              $4,837 13
           11/07 – 10/13        72 months             current            $42,603              $5,845 14
            12/11 – 5/13        18 months           terminated            $6,606                  -
                                  TOTAL                                  $99,759             $31,060 15

As of October 2013, four of the six stepchildren were still in current payment status. Therefore,
additional overpayments could subsequently accrue. If SSA does not take action to terminate



9
 This child had a technical dual entitlement. Technical entitlement exists when an individual is eligible to receive
benefits on more than one record, but benefits are only payable on one record.
10
  We did not estimate potential overpayments for this stepchild. As of October 2013, the child was not receiving
benefits on the stepparent’s record. The child was in current payment status on the natural parent’s record.
11
  We calculated the potential overpayment by multiplying the stepchild's latest monthly benefit amount by the
number of months until he/she reached age 18. We did not adjust our estimate for future cost-of-living increases.
12
     Id.
13
  According to SSA’s records, the stepchild was over age 18 and qualified for benefits as a full-time student. We
calculated the potential overpayment by multiplying the stepchild’s latest monthly benefit amount by the number of
months until he/she was no longer a full-time student. We did not adjust our estimate for future cost-of-living
increases.
14
     Id.
15
     The estimated future overpayments covered a period of 4 to 33 months.



Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)                                               3
benefit payments to these stepchildren, we estimate an additional $31,000 in overpayments could
be made until these children reach age 18 or are older and a full-time student.

In Sample Frame 2, we determined 5 of the 30 stepchildren who were in non-payment status as
of September 2012 were overpaid after the parents’ marriage ended in divorce. This resulted in
approximately $50,000 in OASDI overpayments (see Table 2).

    Table 2: Overpayments to Stepchildren in a Non-Payment Status as of September 2012

                                             Duration of
                                                                  Overpayment
                        Error Period          Improper
                                                                    Amount
                                              Payments
                         8/07 – 2/10          31 months               $7,243
                         7/10 – 4/11          10 months               $3,710
                         3/08 – 8/08           6 months               $2,580
                         9/07 – 6/11          46 months              $22,105
                         1/09 – 2/11          26 months              $14,601
                                       TOTAL                         $50,239

We found these stepchildren incorrectly received benefits for up to 4 years, until they were
terminated by the system for other reasons. Specifically, the stepchildren were terminated

    because they reached age 18 or 19 and were not disabled or

    because they were no longer full-time students and were between ages 18 and 19 or were a
     disabled child and were no longer disabled.

In the 11 error cases, we found SSA had correctly terminated the natural/adoptive parent’s
benefits after the divorce. However, the Agency failed to properly terminate benefits for the
stepchildren. This occurred because SSA staff did not post the child relationship end date after
the parents’ divorce. Consequently, the stepchildren continued receiving benefits. We
recommend SSA review these cases to initiate termination and collect the OASDI overpayments,
as appropriate.

Based on our sample results, we estimate about 248 stepchildren’s benefits were not terminated
properly after the parents’ divorce and therefore they received OASDI overpayments totaling
approximately $3.1 million. Further, unless SSA takes action to correct these errors, we estimate
the stepchildren could receive additional overpayments of approximately $479,000. As such, we
recommend SSA take action to detect any additional stepchildren who are improperly receiving
benefits.

In November 2013, we discussed the error cases with SSA. Operations staff members informed
us it was their practice not to review cases while the audit was ongoing. Staff will review our
application of SSA policy and confirm our overpayment calculations after we conclude our



Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)                          4
audit; therefore, the errors we identified may change, and stepchildren may continue receiving
payments to which they are not entitled.

Initiatives to Prevent and Detect Overpayments
In its March 2008 report, OBFQM reported that many of the errors related to stepchild
terminations were preventable if the Agency made certain system enhancements and addressed
policy/procedural issues. Based on our results, SSA needs to take actions to prevent and detect
future occurrences.

Child Relationship Data Not Posted
The child relationship screen records the details of the child’s relationship to the beneficiary. It
documents the initial claims determination and any subsequent updates on the MBR. According
to SSA’s policy, these data must be present for every child beneficiary. 16 The Title II Redesign
Entitlement and Eligibility process uses data from the child relationship screen to resume,
reinstate, suspend, or terminate benefits for children. If the child relationship end date is present,
the system processes a termination action. Specifically, SSA’s regular transcript attainment and
selection pass (1) selects cases in which the child relationship end date is the month before the
current processing month for child claimants in payment status and (2) sends the Social Security
numbers to the Title II Redesign child relationship module to terminate benefit payments.

Under the Title II Redesign, two separate input actions by SSA staff must be made to terminate
both the natural parent and stepchild’s benefit payments. Specifically, it requires that SSA staff
update the beneficiary marriage and child relationship screens. OBFQM previously reported 17
the failure to make separate inputs on two different screens was the root cause of SSA not
correctly terminating benefits to stepchildren. We determined this problem still existed. As
discussed above, we also found SSA staff had not posted the child relationship end date after the
parents’ divorce for our 11 error cases. To prevent overlooked stepchild payment terminations,
SSA should modify its process for recording child relationship data or consider automating the
termination process so the stepchild’s entitlement would automatically stop when the natural
parent divorces the beneficiary.

Actions Not Taken for Reported Divorces
Although SSA had divorce information pertaining to our error cases, the stepchildren continued
receiving benefits for several months or years after the parents’ divorce. During our review, we
inquired about any recently completed, ongoing, or planned initiatives the Agency had in place
to improve payment accuracy for stepchildren. SSA’s Office of Operations reported it was not
aware of any such initiatives. Further, we learned the Office of Systems did not have an



16
     SSA, POMS, SM 03020.070.A (effective October 20, 2010).
17
     SSA OBFQM, Unreported Divorces/Stepchild Terminations a Source of Title II Improper Payments, March 2008.



Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)                                    5
approved information technology proposal 18 to address the suggested modifications in OBFQM’s
report.

In its March 2008 report, 19 OBFQM suggested the Agency periodically match known divorces
with stepchild information to identify overlooked stepchild terminations. In November 2013, we
confirmed SSA had not performed any such matches. Had the Agency performed a periodic
match or taken other equivalent actions, it may have detected the errors we identified much
earlier and reduced the amount of overpayments.

CONCLUSIONS
SSA issued payments to auxiliary beneficiaries after the parents divorced. Of the
60 beneficiaries sampled, we found SSA did not take appropriate action to terminate OASDI
benefits for 11 stepchildren. As a result, the stepchildren received about $150,000 in OASDI
overpayments. Further, an additional $31,000 in overpayments could accrue if SSA does not
terminate the stepchildren’s records. Also, OBFQM previously reported issues related to the
posting of child relationship data, and we found these problems continue. Based on our analysis,
we estimate SSA overpaid about $3.1 million to 248 stepchildren. Unless SSA takes action to
identify and correct these errors, we estimate the stepchildren will receive additional
overpayments of approximately $479,000. To ensure this does not happen in the future, SSA
should consider (a) modifying the input process for stepchild terminations, (b) implementing
concurrent termination actions for both the natural parent and stepchild after divorce, and/or
(c) establishing an automated periodic review of proven divorces to detect overlooked stepchild
terminations.

The President’s Budget for Fiscal Years 2013 through 2015 includes a legislative proposal to
terminate benefits for a stepchild in the same month as benefits are terminated for a parent. SSA
believes this proposal would address a significant part of this problem, and the Agency continues
to support it.

RECOMMENDATIONS
We recommend SSA:

1. Review the benefits for the 11 stepchildren we identified, collect OASDI overpayments, and
   initiate termination actions, as appropriate.

2. Determine and implement the most cost-effective process to prevent and detect
   overpayments to stepchildren after the parents’ divorce.



18
  Information technology projects are approved by SSA’s Strategic Information Technology Assessment and
Review Board.
19
     SSA OBFQM, Unreported Divorces/Stepchild Terminations a Source of Title II Improper Payments, March 2008.



Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)                                    6
AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix C.




Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)                 7
                                       APPENDICES




Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

   Obtained and reviewed applicable Federal laws and regulations and pertinent sections of the
    Social Security Administration’s (SSA) Program Operations Manual System (POMS),
    Modernized Systems Operations Manual, and SSA Handbook.

   Reviewed prior Office of Budget, Finance, Quality, and Management and Office of the
    Inspector General reports pertaining to unreported marriages and divorces, and benefit
    payments to stepchildren.

   Interviewed personnel from SSA’s Offices of Operations, Systems, and Retirement and
    Disability Policy.

   Obtained and analyzed a data extract from SSA’s Master Beneficiary Record (MBR) as of
    September 2012. See Appendix B for detailed information.

   Selected 2 random samples of 30 stepchildren. For the sampled cases, we examined
    information in SSA’s MBR, Numident, Representative Payee System, Modernized Claims
    System, and Claims File Records Management System.

   For each sampled case, we:

     Determined whether the stepchild received benefits after the parents’ divorce.
      Specifically, we determined whether the stepchild was still in current payment status. If
      the stepchild’s payment was terminated, we determined whether the termination occurred
      timely.

     Confirmed the divorced spouse was the stepchild’s natural or adoptive parent. 1

     Determined whether the divorce between the beneficiary and natural/adoptive parent was
      proven. 2

     Determined whether the stepchild was inappropriately placed in a suspended status
      instead of being terminated. If applicable, evaluated the effects on other auxiliary
      beneficiaries on the record.


1
  Marital information on the MBR was not always complete. For six sample cases, we found the marriage between
the beneficiary and the stepchild’s natural/adoptive parent was not posted on the MBR. However, since we did not
identify any evidence of divorce or annulment, we presume this is the beneficiary’s current spouse, and thus, the
stepchild could continue receiving benefits. In November 2013, we discussed this issue with SSA.
2
  According to SSA policy, proof of divorce is generally required. However, an allegation of divorce is acceptable if
the termination of marriage is also a terminating event for benefits. SSA, POMS, GN 00305.140 (effective
October 31, 2011).



Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)                                         A-1
     Determined whether the beneficiary had legally adopted the stepchild, as he/she may still
      qualify for benefits as the beneficiary’s adopted child.

     Determined whether administrative finality applied. 3

     Determined whether the divorce was applicable to other stepchildren on the record.

     Identified the period in which the stepchild was inappropriately receiving benefits and
      calculated the estimated overpayment.

   Assessed the system controls that SSA had in place to ensure auxiliary benefits to
    stepchildren were terminated when the marriage between the beneficiary and the parent
    ended.

   Identified the recently completed, ongoing, and planned initiatives SSA had in place to
    improve payment accuracy for stepchildren.

We conducted our review at SSA’s Headquarters in Baltimore, Maryland, from April through
November 2013. We found the data used for this audit to be sufficiently reliable to meet our
audit objective. Further, any data limitations were minor in the context of this assignment, and
the use of the data should not lead to an incorrect or unintentional conclusion. The primary
entities audited were the Offices of the Deputy Commissioners for Operations, Systems, and
Retirement and Disability Policy.

We conducted our review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




3
  The applicability of administrative finality depends on the facts of each case. According to information provided
by SSA staff, administrative finality does not apply to the cases in our sample. SSA, POMS, GN 04001.030.B
(effective December 22, 1989) and GN 03101.040.B (effective June 17, 2011).



Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)                                         A-2
Appendix B – SAMPLING METHODOLOGY AND RESULTS
We obtained and analyzed data extracted from the Social Security Administration’s (SSA)
Master Beneficiary Record (MBR). As of September 2012, we had identified 1,390 stepchildren
from all 20 segments of the MBR that met the following screening criteria.

     A stepchild was present on the record.
     The record contained a Marriage End Date of June 2007 or later. 1
     The Marriage End Reason was Divorce. 2
     The stepchild had a ledger account file code 3 other than N (disallowed), ND (denied), T3
      (terminated by the divorce, marriage, or remarriage of the beneficiary) or T1 (terminated
      because of death of the beneficiary).

We separated these stepchildren into two Sample Frames.

     SAMPLE FRAME 1 —463 stepchildren in current payment status as of September 2012.
     SAMPLE FRAME 2 — 927 stepchildren who were not in current payment status as of
      September 2012. 4

We selected a random sample of 30 stepchildren from each sample frame, for a total of
60 stepchildren. For each sample item, we reviewed SSA’s records to determine whether the
Agency properly terminated auxiliary benefits to stepchildren when the marriage between the
beneficiary and the child’s parent ended in divorce.




1
 Since the Office of Budget, Finance, Quality, and Management reviewed terminations from July 1996 through
May 2007 as part of its prior studies, our review focused on marriages ending in June 2007 or later.
2
 Less than 1 percent (22 of the 15,702 records) involved an annulled marriage. Therefore, we focused our efforts
on marriages ending in divorce.
3
    These codes indicate the payment status of the beneficiary. SSA, POMS, SM 00550.020 (effective May 15, 2009).
4
  The stepchildren in Sample Frame 2 had a ledger account file code of either D, S, T, or X. All of these codes
indicate the beneficiary is not receiving monthly benefits. SSA, POMS, SM 00550.020 (effective May 15, 2009).



Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)                                       B-1
                                   Table B–1: Population and Sample Size
                                                                                      Total
                                              Sample              Sample
                                                                                    Number of
                                              Frame 1             Frame 2
                                                                                   Stepchildren
                     Population Size             463                 927              1,390
                      Sample Size                 30                  30                60

Based on our two samples, we determined SSA overpaid about $150,000 in Old-Age, Survivors
and Disability Insurance (OASDI) benefits to 11 stepchildren. Using a straight-line
methodology, 5 we estimate about 248 stepchildren were not terminated properly after the
parents’ divorce. These stepchildren received OASDI overpayments totaling approximately
$3.1 million as of October 2013. Unless SSA takes action to correct these errors, we estimate
additional overpayments of approximately $479,000 could accrue until these children reach
age 18 or older and a full-time student.

            Table B–2: Overpayments to Stepchildren in Current Payment Status as of
                                       September 2012
                                                                         OASDI      Estimated
                                                    Number of         Overpayments   Potential
                                                   Stepchildren           as of       Future
                                                                      October 2013 Overpayments
                     Sample Results                        6             $99,759      $31,060
                 Straight-Line Estimate                   93           $1,539,614    $479,359
         Note:    We used a straight-line estimation method to calculate the number of stepchildren and related
                  overpayments. The estimates assume all variables remain equal.

    Table B–3: Overpayments to Stepchildren in Non-Payment Status as of September 2012
                                                                Number of           OASDI
                                                               Stepchildren      Overpayments
                                Sample Results                      5               $50,239
                            Straight-Line Estimate                 155            $1,552,385
                    Note:     We used a straight-line estimation method to calculate the number of stepchildren and
                              related overpayments. The estimates assume all variables remain equal
.




5
    We based our straight-line estimate on the following equation: Population Size/Sample size x Sample Results.



Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)                                              B-2
           Appendix C – AGENCY COMMENTS




                                            SOCIAL SECURITY

MEMORANDUM


Date:      April 18, 2014                                                             Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Accuracy of Auxiliary payments to Children After
           Divorce” (A-13-11-21100) -- INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)                       C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“ACCURACY OF AUXILIARY PAYMENTS TO CHILDREN AFTER DIVORCE”
(A-13-11-21100)


Recommendation 1

Review the benefits for the 11 stepchildren we identified, collect OASDI overpayments, and
initiate termination actions, as appropriate.

Response

We agree. We will review the 11 identified cases and take appropriate corrective action by
July 2014.

Recommendation 2

Determine and implement the most cost-effective process to prevent and detect overpayments to
stepchildren after the parents' divorce.

Response

We agree. We will analyze the sample cases from this review to determine what actions are
cost-effective and feasible to prevent overpayments to stepchildren. We will complete this
analysis by the end of fiscal year 2014.




Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)                     C-2
Appendix D – MAJOR CONTRIBUTORS
Shirley E. Todd, Director

Florence Wolford, Audit Manager

Melinda Byrd, Senior Auditor




Accuracy of Auxiliary Payments to Children After Divorce (A-13-11-21100)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
